No. 20-727

ln tlJt hpmnt C!lnurt nf tlJt 11hrittb .&tales
F ACEBOOK, INC.,

Petitioner,

v.
PERRIN AIKENS DAVIS, et al.,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE

I, Patrick J. Carome, a member of the bar of this Court, hereby certify that, on
this 28th day of December, 2020, all parties required to be served have been served
copies of the Brief for Internet Association, Chamber of Commerce of the United States
of America, Software and Information Industry Association, and Computer and
Communications Industry Association as Amici Curiae in Support of Petitioner in this
matter by overnight courier to the addresses on the attached service list.

Mz1::_7&,__~ )

PATRICKJ. CAROME

Counsel of Record

/

WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006

(202) 663-6000

patrick.carome @wilmerhale.com

20-757 SERVICE LIST
Counsel of Record for Petitioner

Counsel of Record for Respondents

JEFFREY L. FISHER
O'MELVENY & MYERS LLP
2765 Sand Hill Road
Menlo Park, CA 94025-7019
(650) 473-2633
jlfisher@omm.com

MATTHEW W.H. WESSLER
GUPTA WESSLER PLLC
1900 L Street, NW
Suite 312
Washington, DC 20036
(202) 888-1741
matt@guptawessler.com

